 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




               Allegheny County Housing Authority,
                          Pittsburgh, PA

                Housing Choice Voucher Program




2012-PH-1012                                 SEPTEMBER 21, 2012
                                                        Issue Date: September 21, 2012

                                                        Audit Report Number: 2012-PH-1012




TO:            Jacqueline A. Molinaro-Thompson, Director, Office of Public Housing,
                 Pittsburgh Field Office, 3EPH
               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       The Allegheny County Housing Authority, Pittsburgh, PA, Needs To Improve Its
               Inspections To Ensure That All Section 8 Housing Choice Voucher Units Meet
               Housing Quality Standards

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Allegheny County Housing
Authority’s administration of its housing quality standards inspection program for its Section 8
Housing Choice Voucher program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                             September 21, 2012
                                             The Allegheny County Housing Authority, Pittsburgh,
                                             PA, Needs To Improve Its Inspections To Ensure That
                                             All Section 8 Housing Choice Voucher Units Meet
                                             Housing Quality Standards


Highlights
Audit Report 2012-PH-1012


 What We Audited and Why                      What We Found

We audited the Allegheny County              The Authority did not conduct adequate inspections to
Housing Authority’s Housing Choice           ensure that its program units met housing quality
Voucher program because (1) the              standards as required. Of 70 program units statistically
Authority received more than $27.3           selected for inspection, 57 did not meet HUD’s
million in Housing Choice Voucher            housing quality standards. Moreover, 26 of the 57
funding in fiscal year 2011, (2) an          units were in material noncompliance with housing
article in the October 22, 2011,             quality standards. The Authority disbursed $14,535 in
Pittsburgh Post-Gazette described            housing assistance payments and received $535 in
housing quality standards problems           administrative fees for these 26 units. We estimate
with a housing unit participating in the     that over the next year if the Authority does not
Authority’s program, and (3) we had          implement adequate procedures to ensure that its
never audited the Authority’s Housing        program units meet housing quality standards, HUD
Choice Voucher program. The audit            will pay nearly $5.2 million in housing assistance for
objective was to determine whether the       units that materially fail to meet HUD’s housing
Authority ensured that its Housing           quality standards.
Choice Voucher program units met the
U.S. Department of Housing and Urban
Development’s (HUD) housing quality
standards.

 What We Recommend

We recommend that HUD require the
Authority to (1) reimburse its program
$15,070 from non-Federal funds for the
26 units that materially failed to meet
HUD’s housing quality standards and
(2) use the results of this audit to train
all of its inspectors to ensure that
program units meet housing quality
standards, thereby ensuring that $5.2
million in program funds is expended
for units that are decent, safe, and
sanitary.
                            TABLE OF CONTENTS

Background and Objective                                               3

Results of Audit
      Finding: Housing Quality Standards Inspections Were Inadequate   4

Scope and Methodology                                                  12

Internal Controls                                                      14

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use   16
B.    Auditee Comments and OIG’s Evaluation                            17




                                            2
                        BACKGROUND AND OBJECTIVE

The Allegheny County Housing Authority was established in 1938 under the laws of the
Commonwealth of Pennsylvania to implement State and national housing laws designed to improve
housing conditions in low-income groups. Its purpose is to increase the number of decent, safe, and
sanitary dwellings available to low-income families. The Authority is governed by a five-member
board of commissioners appointed for 5-year terms by the county chief executive with the approval
of the County Council of Allegheny County. The Authority’s operations are subsidized primarily
by the Federal Government, and the Authority is not considered a component unit of the County.
The Authority’s executive director is Frank Aggazio. Its offices are located at 625 Stanwix Street,
Pittsburgh, PA.

Under the Section 8 Housing Choice Voucher program, the U.S. Department of Housing and
Urban Development (HUD) authorized the Authority to provide leased housing assistance
payments to more than 5,500 eligible households in fiscal year 2011. HUD authorized the
Authority the following financial assistance for housing choice vouchers for fiscal years 2009
through 2011:

                        Fiscal    Number of vouchers          Annual budget
                         year        authorized                 authority
                        2009           5,294                   $27,669,645
                        2010           5,306                   $27,616,630
                        2011           5,506                   $27,320,434

HUD regulations at 24 CFR (Code of Federal Regulations) 982.405(a) require public housing
authorities to perform unit inspections before the initial move-in and at least annually. The
authority must inspect the unit leased to the family before the term of the lease, at least annually
during assisted occupancy, and at other times as needed to determine whether the unit meets
housing quality standards.

Our audit objective was to determine whether the Authority ensured that its Housing Choice
Voucher program units met HUD’s housing quality standards.




                                                   3
                                 RESULTS OF AUDIT


Finding: Housing Quality Standards Inspections Were Inadequate
The Authority did not conduct adequate inspections to enforce HUD’s housing quality standards.
Of 70 program housing units inspected, 57 did not meet HUD’s housing quality standards, and
26 materially failed to meet HUD’s standards. The Authority’s inspectors did not observe or
report 370 violations that existed at the units when they conducted their inspections. This
condition occurred because the Authority’s inspectors were not aware that some deficiencies
were violations and missed some violations during their inspections. As a result, it disbursed
$14,535 in housing assistance payments and received $535 in administrative fees for the 26 units
that materially failed to meet HUD’s housing quality standards. Unless the Authority improves
its inspection program and ensures that all units meet housing quality standards, we estimate that
it will pay nearly $5.2 million in housing assistance for units that materially fail to meet HUD’s
standards over the next year.


 Housing Units Did Not Meet
 HUD’s Housing Quality
 Standards

               We statistically selected 70 units from a universe of 733 units that passed an
               Authority housing quality standards inspection between January 22 and March 21,
               2012. The 70 units were selected to determine whether the Authority ensured that
               the units in its Section 8 Housing Choice Voucher program met housing quality
               standards. We inspected the 70 units from April 16 to April 27, 2012.

               Of the 70 housing units inspected, 57 (81 percent) had 436 housing quality
               standards violations. Additionally, 26 of the 57 units (46 percent) were in
               material noncompliance with housing quality standards because they had 255
               violations that predated the Authority’s last inspection and were not identified by
               the Authority’s inspectors, creating unsafe living conditions. Also, of the 57 units
               that failed our inspection, 4 had 4 violations that were noted on the Authority’s
               previous inspection reports, and the Authority later passed the units. However,
               during our inspection, we determined that the violations had not been corrected.
               HUD regulations at 24 CFR 982.401 require that all program housing meet
               housing quality standards performance requirements both at commencement of
               assisted occupancy and throughout the assisted tenancy. The following table
               categorizes the 436 housing quality standards violations in the 57 units that failed
               our housing quality standards inspections.




                                                4
                                                                  Number of        Number        Percentage
                                               1
                                 Key aspect                       violations       of units       of units
                   Structure and materials                            176             52             74
                   Illumination and electricity                       186             42             60
                   Food preparation and refuse disposal                24             19             27
                   Smoke detectors                                     12              9             13
                   Interior air quality                                 9              9             13
                   Thermal environment                                  7              6              9
                   Sanitary facilities                                  5              5              7
                   Space and security                                   4              4              6
                   Site and neighborhood                                9              3              4
                   Access                                               4              3              4
                   Total                                              436

                 We provided our inspection results to the Authority and to the Director of HUD’s
                 Pittsburgh Office of Public Housing during the audit.

    Housing Quality Standards
    Violations Were Identified

                 The following pictures illustrate some of the violations we noted while
                 conducting housing quality standards inspections in the 26 units that materially
                 failed to meet HUD’s housing quality standards.




1
 24 CFR 982.401 categorizes housing quality standards performance and acceptability criteria into 13 key aspects.
Only 10 key aspects are listed in the table because we identified no violations for 3 key aspects.

                                                        5
Inspection #3: The basement fuse box is not secure and contains exposed wires
and contacts. The Authority did not identify this violation during its
February 29, 2012, inspection.




Inspection #19: The exterior light on the front porch has exposed wiring. The
Authority did not identify this violation during its January 30, 2012, inspection.




                                        6
Inspection #52: The junction box above the washing machine is missing a
knockout plug creating a potential shocking hazard. The Authority did not
identify this violation during its February 1, 2012, inspection.




Inspection #55: The stairway on the first floor requires a guardrail on the open
side. The Authority did not identify this violation during its February 16, 2012,
inspection.




                                        7
Inspection #59: The vent on the hot water heater has a negative slope, which
prohibits gases from venting properly. The Authority did not identify this
violation during its February 3, 2012, inspection.




Inspection #62: The pressure relief valve discharge tube is more than the required
6-inch maximum distance from the floor. The Authority did not identify this
violation during its March 1, 2012, inspection.




                                       8
The Authority Needs To Train
Its Inspectors and Improve Its
Quality Control Program

            Although HUD regulations at 24 CFR 982.401 and the Authority’s administrative
            plan required the Authority to ensure that its program units met housing quality
            standards, it did not always do so because its inspectors were not aware that some
            deficiencies were violations and missed some violations during their inspections.
            Additionally, the Authority can improve its quality control program.

                   The Authority’s inspectors were not aware that some deficiencies were
                   violations of housing quality standards. For example, the inspectors did
                   not identify and report missing knockout plugs in junction boxes,
                   improperly wired electrical outlets, deteriorated and broken concrete steps
                   and walkways, and open sides on flights of stairs in the units inspected. In
                   these instances, the inspectors were not aware that missing knockout plugs
                   and improperly wired electrical outlets violated the standards, didn’t
                   consider the condition of deteriorated and broken concrete steps and
                   walkways as tripping hazards, and didn’t correctly measure the total rise
                   on flights of stairs when determining whether open sides on a flight of
                   stairs were a violation of the standards.

                   In addition, the Authority’s inspectors did not identify and report some
                   electrical violations because they were not aware of program guidance
                   contained in HUD’s Office of Public and Indian Housing (PIH) Notice
                   PIH 2010-10, issued March 31, 2010. The Notice provides supplementary
                   guidance to inspectors for determining whether electrical receptacles meet
                   housing quality standards, including open grounds on three-pronged
                   electrical outlets. The Authority claimed it wasn’t aware that the guidance
                   had been issued.

                   The Authority’s inspectors missed some violations during their inspections
                   because they did not thoroughly inspect the units. For example, they
                   missed improperly sloped flue pipes, unsecured fuse boxes, a missing
                   smoke detector, and inoperable window locks in the units inspected.

                   The Authority can improve its housing quality standards inspection
                   program by developing and implementing written quality control
                   procedures including to document its use of the quality control reviews to
                   improve its inspection program. The Authority’s quality control inspector
                   generally met with the Authority’s five housing inspectors monthly for
                   about 30 minutes to review the results of quality control inspections and
                   provide verbal feedback on the inspector’s performance. However, since
                   the feedback was verbal, there was no documentation to show what
                   specific inspection issues were discussed and how the quality control


                                             9
                    inspector used the results to improve the Authority’s inspection program.
                    HUD’s Housing Choice Voucher Guidebook 7420.10G states that the
                    results of the quality control inspections should be provided as feedback
                    on inspectors’ work, which can be used to determine whether individual
                    performance or general housing quality standards training issues need to
                    be addressed. The Authority’s administrative plan stated that quality
                    control reviews would be performed and when significant errors were
                    found, appropriate training would be immediately conducted for the
                    responsible inspector. It had no other written procedures for its quality
                    control inspections.

The Authority Had Taken
Action

             The Authority had taken action to improve its housing quality standards
             inspection program. On May 10, 2012, it provided each of its inspectors a voltage
             detector and a polarity tester. The voltage detector and polarity tester allow the
             inspectors to identify electrical violations discussed in Notice PIH 2010-10. The
             Authority trained its inspectors on the proper use of these new tools. The
             inspectors informed us that they now test to ensure that three-pronged electrical
             outlets are properly grounded, all outlets are properly wired, and junction boxes
             do not have open knockout plugs.

Conclusion

             The Authority’s program participants were subjected to housing quality standards
             violations that created unsafe living conditions during the participants’ tenancy.
             The Authority did not properly use its program funds when it inspected and
             passed program units that did not meet HUD’s housing quality standards. In
             accordance with HUD regulations at 24 CFR 982.152(d), HUD is permitted to
             reduce or offset program administrative fees paid to a public housing authority if
             it fails to perform its administrative responsibilities correctly or adequately, such
             as not enforcing HUD’s housing quality standards. The Authority disbursed
             $14,535 in housing assistance payments and received $535 in program
             administrative fees for the 26 units that materially failed to meet HUD’s housing
             quality standards. If the Authority trains its inspectors and improves its quality
             control inspection program to ensure that all units meet housing quality standards,
             we estimate that nearly $5.2 million in future housing assistance payments will be
             spent for units that are decent, safe, and sanitary. Our methodology for this
             estimate is explained in the Scope and Methodology section of this report.




                                              10
Recommendations

          We recommend that the Director of HUD’s Office of Public Housing, Pittsburgh
          field office, direct the Authority to

          1A.     Certify, along with the owners of the 57 units cited in this finding, that the
                  applicable housing quality standards violations have been corrected.

          1B.     Reimburse its program $15,070 from non-Federal funds ($14,535 for
                  housing assistance payments and $535 in associated administrative fees)
                  for the 26 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Use the results of this audit to train all of its inspectors to ensure that
                  program units meet housing quality standards, thereby ensuring that
                  $5,163,804 in program funds is expended for units that are decent, safe,
                  and sanitary.

          1D.     Develop and implement written procedures for its quality control
                  inspection program to improve its housing quality standards inspections.




                                            11
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       Applicable laws, regulations, the Authority’s administrative plan, HUD’s program
       requirements at 24 CFR Part 982, HUD’s Housing Choice Voucher Guidebook
       7420.10G, and other guidance.

       The Authority’s inspection reports; computerized databases including housing quality
       standards inspection, housing assistance payment, and tenant data; annual audited financial
       statements for 2009 and 2010; tenant files; policies and procedures; board meeting minutes;
       and organizational chart.

       HUD’s monitoring reports for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

To achieve our audit objective, we relied in part on computer-processed data from the
Authority’s computer system. Although we did not perform a detailed assessment of the
reliability of the data, we did perform a minimal level of testing and found the data to be
adequate for our purposes.

We statistically selected 70 of the Authority’s program units to inspect from a universe of 733
program units that passed an Authority-administered housing quality standards inspection
between January 22 and March 21, 2012. These inspections were conducted by any of six
inspectors, all of whom played an active role in the program. We selected the sample based on a
confidence level of 90 percent, an estimated error rate of 50 percent, and a precision level of plus
or minus 10 percent. We inspected the selected units between April 16 and April 27, 2012, to
determine whether the Authority’s program units met housing quality standards. The
Authority’s associate director of its Housing Choice Voucher program accompanied our auditor
and appraiser on all of the inspections.

Our sampling results determined that 26 of the 70 units (37 percent) materially failed to meet
HUD’s housing quality standards. We determined that the 26 units were in material
noncompliance because they had 255 violations that existed before the Authority’s last
inspection, which created unsafe living conditions. All units were ranked according to the
severity of the violations, and we used auditors’ judgment to determine the material cutoff point.

We estimate, with a one-sided confidence interval of 95 percent, that at least 29.37 percent of the
733 units passed by inspectors during the 2-month sample period were in material
noncompliance with housing quality standards. By averaging the housing assistance payments
made for substandard housing across all 733 units that passed an Authority inspection and
deducting for a statistical margin of error, we estimate, with a one-sided confidence interval of
95 percent, that the amount of monthly housing assistance payment dollars spent on substandard
housing passed by the Authority during the sample period was $137 per unit. Prorating the 733

                                                12
units passed by the Authority’s inspectors during the 2-month sample period to an annual basis
yields 3,141 units expected to pass an Authority inspection in 1 year. Multiplying the 3,141 by
the $137 per unit monthly housing assistance payment for substandard housing yields a total of
$430,317 per month. Multiplying the monthly amount of $430,317 by 12 yields an annual total
of $5,163,804 in housing assistance payments for substandard housing that passed an Authority
inspection. This amount is presented solely to demonstrate the annual amount of program funds
that could be put to better use on decent, safe, and sanitary housing if the Authority implements
our recommendations. While these benefits would recur indefinitely, we were conservative in
our approach and included only the initial year in our estimate.

We performed our onsite audit work from December 2011 through August 2012 at the
Authority’s office located at 625 Stanwix Street, Pittsburgh, PA. The audit covered the period
January 2011 through March 2012 but was expanded when necessary to include other periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 14
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                   The Authority’s inspectors were not aware that some deficiencies were
                   violations of housing quality standards and missed some violations during
                   their inspections.




                                             15
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                Recommendation                              Funds to be put
                                         Ineligible 1/
                    number                                  to better use 2/
                        1B                 $15,070
                        1C                                    $5,163,804


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendations, it will cease to incur program costs for units that are not decent, safe,
     and sanitary and, instead, will expend those funds for units that meet HUD’s standards,
     thereby putting approximately $5.2 million in program funds to better use. Once the
     Authority successfully improves its controls, this will be a recurring benefit. Our
     estimate reflects only the initial year of this benefit.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         17
Comment 3




Comment 4
Comment 2




Comment 5




Comment 6




            18
Comment 7



Comment 8




Comment 9




            19
20
21
                          OIG Evaluation of Auditee Comments

Comment 1    On August 24, 2012, after the exit conference, we provided the Authority with
             eight updated pages from the draft report that contained minor wording changes
             and a minor adjustment in the number of housing quality standards violations that
             we identified during our inspections.

Comment 2    We disagree with the Authority’s assertion that there were not any major issues or
             problems with its housing choice voucher program. As stated in the audit report,
             the Authority did not conduct adequate inspections to ensure that its housing
             choice voucher program units met HUD’s housing quality standards as required.
             Its inspectors were not aware that some deficiencies were violations of the
             standards and they missed some violations during their inspections.

Comment 3    We did not look at hundreds of participant files during the course of our review.
             As stated in the audit report, we statistically selected 70 units from a universe of
             733 units that passed an Authority housing quality standards inspection between
             January 22 and March 21, 2012. The 70 units were selected to determine whether
             the Authority ensured that the units in its Section 8 Housing Choice Voucher
             program met housing quality standards. We did not review the related participant
             files for compliance with all HUD requirements.

Comment 4    We disagree with the Authority’s assertion that the draft report confirmed HUD’s
             designation of the Authority as a high performer.

Comment 5    The Authority’s calculation is not supported by the audit results. As stated in the
             audit report, we statistically selected 70 units from a universe of 733 units that
             passed an Authority-administered housing quality standards inspection between
             January 22 and March 21, 2012. We selected the sample based on a confidence
             level of 90 percent, an estimated error rate of 50 percent, and a precision level of
             plus or minus 10 percent. Our sampling results determined that 26 of the 70 units
             (37 percent) materially failed to meet HUD’s housing quality standards. For the
             2-month sample period, we determined that the Authority disbursed $14,535 in
             housing assistance payments and received $535 in administrative fees for these 26
             units that had 255 violations that existed before the Authority’s last inspection,
             which created unsafe living conditions. These dollar amounts are conservative
             because we did not calculate any ineligible housing assistance payments for the
             first 30 days after the date of the Authority’s inspection. Our statistical sample
             allowed us to project that if the Authority implements our recommendations, over
             the next year, it will cease to incur program costs for units that are not decent,
             safe, and sanitary and, instead, will expend those funds for units that meet HUD’s
             standards, thereby putting approximately $5.2 million in program funds to better
             use.

Comment 6 We disagree with the Authority’s assertion. As stated in the audit report, we
          audited the Authority’s program because (1) the Authority received more than

                                              22
            $27.3 million in Housing Choice Voucher funding in fiscal year 2011, (2) an
            article in the October 22, 2011, Pittsburgh Post-Gazette described housing quality
            standards problems with a housing unit participating in the Authority’s program,
            and (3) we had never audited the Authority’s Housing Choice Voucher program.
            We considered all three of these factors in making our determination to audit the
            Authority. The Inspector General Act of 1978 gave HUD OIG the authority to
            initiate, carry out and complete independent and objective audits of HUD
            programs and operations. We initiate audits based on information obtained from
            program officials, program research, complaints, congressional requests and risk
            assessments. These audits include performance audits, which determine whether
            programs are achieving the desired results or benefits in an efficient and effective
            manner.

Comment 7   We disagree with the Authority’s assertion that a dangerous condition did not
            exist. As stated in the audit report, the caption for the first photograph states,
            “The basement fuse box is not secure and contains exposed wires and contacts.”
            This statement is true and consistent with HUD’s housing quality standards.
            Electrical contacts need to be isolated by a separation that cannot be undone
            manually. An obvious safety hazard exists when a fuse box can be opened by
            hand exposing the electrical contacts.

Comment 8   We disagree with the Authority’s assertion. The Authority’s statements regarding
            the lack of a guardrail are inconsistent with housing quality standards. The
            regulations at 24 CFR 982.401(g)(2)(iv) state that the condition and equipment of
            interior and exterior stairs, halls, porches, walkways, etc., must not present a
            danger of tripping and falling. HUD’s Housing Choice Voucher Program
            Guidebook, 7420.10G reiterates this requirement and also states that handrails are
            required when four or more steps (risers) are present.

Comment 9   We disagree with the Authority’s assertion. The calculation of funds to be put to
            better use is based on the results of our inspections of a sample of program units
            that statistically represents the population from which it was drawn. Our
            projection is what we expect would occur if we had not performed our audit. Our
            methodology is valid.




                                             23
